Highlights
Table of Contents




                    Equipment Transfer
                    From the Lansing, MI,
                    Processing and
                    Distribution Center to
Findings




                    the Grand Rapids, MI,
                    Processing and
                    Distribution Center
Recommendations




                    Audit Report
                    Report Number
                    NO-AR-14-010

                    September 5, 2014
Appendices




                                             Print
Highlights
Table of Contents




                    Highlights                                                    Background                                                           The Lansing P&DC is not fully utilizing the APBS and
                                                                                                                                                       transferring it will give the Grand Rapids P&DC more
                                                                                  The U.S. Postal Service continues to aggressively cut costs. To
                                                                                                                                                       machine capacity to process the large volume of mail being
                                                                                  that end, it is consolidating the mail processing network to align
                                                                                                                                                       processed manually.
                                                                                  it with reduced mail volume and a smaller workforce.
                           A business case exists to
                                                                                                                                                       In addition, the Grand Rapids P&DC needs an additional APBS
Findings




                                                                                  This report responds to a congressional request from
                          support moving the APBS                                                                                                      due to increased volume. For the period October 1, 2013,
                                                                                  Senator Carl Levin of Michigan to review the Postal Service’s
                                                                                                                                                       through March 31, 2014, the Lansing P&DC APBS mail volume
                       from the Lansing P&DC to the                               proposed move of the Automated Parcel and Bundle Sorter
                                                                                                                                                       declined 20 percent compared to the same period last year.
                                                                                  (APBS) machine from the Lansing, MI, Processing and
                                                                                                                                                       Conversely, the APBS mail volume at the Grand Rapids P&DC
                    Grand Rapids P&DC. The overall                                Distribution Center (P&DC) to the Grand Rapids, MI, P&DC.
                                                                                                                                                       increased 54 percent compared to the same period last year. In
                          cost savings will be about                              The APBS performs the primary function of receiving small
                                                                                                                                                       addition, if the APBS is transferred, the Lansing P&DC plans to
                                                                                                                                                       reassign the 25 employees working on the APBS to other mail
                         $1.8 million in the first year,                          parcels, bundles, and irregular parcels and sorting them
Recommendations




                                                                                                                                                       processing operations within its facility.
                                                                                  based on their postal code into as many as 200 separate
                      and about $1.9 million annually                             output locations.
                                                                                                                                                       What The OIG Recommended
                               in subsequent years.                               Our objective was to determine whether a business case               We recommended the vice president, Network Operations,
                                                                                  exists for moving the APBS from the Lansing P&DC to the              transfer the Lansing P&DC’s APBS to the Grand Rapids P&DC.
                                                                                  Grand Rapids P&DC.

                                                                                  What The OIG Found
                                                                                  A business case exists to support moving the APBS from the
                                                                                  Lansing P&DC to the Grand Rapids P&DC. The overall cost
                                                                                  savings will be about $1.8 million in the first year, and about
Appendices




                                                                                  $1.9 million annually in subsequent years.




                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                                              Print                                  1
Highlights
Table of Contents




                                                                                                                                                              Michigan
Findings




                                                                                                    Grand Rapids P&DC

                                                                                                        Grand Rapids
                                                                                                                                           Lansing P&DC
Recommendations




                                                                                                                                                           Lansing




                                                                                  The Lansing and Grand Rapids P&DCs are about 72 miles apart and are located
                                                                                  in the Greater Michigan District in the Great Lakes Area. Movement of the APBS
                                                                                  was included in the AMP study completed by the Greater Michigan District to
                                                                                  consolidate mail operations from the Lansing P&DC to the Grand Rapids P&DC.
                                                                                  Postal Service Headquarters approved the move in March 2014.
Appendices




                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                         Print           2
Highlights
                    Transmittal Letter


                                                                                  September 5, 2014
Table of Contents




                                                                                  MEMORANDUM FOR:	           DAVID E. WILLIAMS, JR.
                                                                                                             VICE PRESIDENT, NETWORK OPERATIONS
                                                                                                                 E-Signed by Robert Batta
                                                                                  				                         VERIFY authenticity with e-Sign




                                                                                  FROM: 			 Robert J. Batta
                                                                                  				Deputy Assistant Inspector General
                                                                                  				       for Mission Operations
Findings




                                                                                  SUBJECT: 			 Audit Report – Equipment Transfer from the Lansing, MI,
                                                                                  				         Processing and Distribution Center to the
                                                                                  				         Grand Rapids, MI, Processing and Distribution Center
                                                                                  				(Report Number NO-AR-14-010)

                                                                                  This report presents the results of our audit of an Equipment Transfer from the Lansing, MI,
                                                                                  Processing and Distribution Center to the Grand Rapids, MI, Processing and Distribution
Recommendations




                                                                                  Center (Project Number 14XD001NO000). Specifically, we reviewed the proposed move of
                                                                                  the Automated Parcel and Bundle Sorter from the Lansing facility to the Grand Rapids facility.

                                                                                  We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                                                  questions or need additional information, please contact James L. Ballard, director,
                                                                                  Network Processing and Transportation, or me at 703-248-2100.

                                                                                  Attachment

                                                                                  cc:	   Corporate Audit and Response Management
Appendices




                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                        Print                      3
Highlights
                    Table of Contents
                                                                                  Cover
                                                                                  Highlights.......................................................................................................1
                                                                                   Background.................................................................................................1
                                                                                   What The OIG Found..................................................................................1
Table of Contents




                                                                                   What The OIG Recommended...................................................................1
                                                                                  Transmittal Letter...........................................................................................3
                                                                                  Findings.........................................................................................................5
                                                                                   Introduction.................................................................................................5
                                                                                   Conclusion..................................................................................................5
                                                                                   Machine Use...............................................................................................5
                                                                                   Employee Impact........................................................................................7
                                                                                   Cost Savings...............................................................................................8
                                                                                  Recommendations........................................................................................9
                                                                                   Management’s Comments..........................................................................9
Findings




                                                                                   Evaluation of Management’s Comments....................................................9
                                                                                  Appendices..................................................................................................10
                                                                                   Appendix A: Additional Information........................................................... 11
                                                                                     Background ........................................................................................... 11
                                                                                     Objective, Scope, and Methodology.......................................................13
Recommendations




                                                                                     Prior Audit Coverage..............................................................................13
                                                                                   Appendix B: Management’s Comments....................................................14
                                                                                  Contact Information.....................................................................................16
Appendices




                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                                            Print                      4
Highlights
                    Findings                                                      Introduction
                                                                                  This report presents the results of our audit of an Automated Parcel and Bundle Sorter (APBS)1 transfer from the
                                                                                  Lansing Processing and Distribution Center (P&DC) to the Grand Rapids P&DC (Project Number 14XD001NO000). The report
                                                                                  responds to a request from Senator Carl Levin of Michigan to review the transfer. Our objective was to determine whether a
                                                                                  business case exists for moving the APBS from the Lansing, MI, P&DC to the Grand Rapids, MI, P&DC. See Appendix A for
                                                                                  additional information about this audit.

                           The Lansing P&DC is not                                Movement of the APBS was included in the approved Area Mail Processing (AMP)2 study completed by the Greater Michigan
Table of Contents




                                                                                  District to relocate all originating3 and destinating4 mail processing and distribution operations from the Lansing P&DC to the
                         fully utilizing the APBS and                             Grand Rapids P&DC. Postal Service Headquarters approved the move in March 2014.
                          transferring it will give the
                                                                                  Conclusion
                          Grand Rapids P&DC more                                  A business case exists to support moving the APBS from the Lansing P&DC to the Grand Rapids P&DC. The overall cost savings
                                                                                  will be about $1.8 million in the first year, and about $1.9 million annually in subsequent years.
                        machine capacity to process
                      the large volume of mail being                              The Lansing P&DC is not fully utilizing the APBS and transferring it will give the Grand Rapids P&DC more machine capacity to
                                                                                  process the large volume of mail being processed manually. In addition, the Grand Rapids P&DC needs an additional APBS due
                    processed manually. In addition,                              to increased volume. For the period October 1, 2013, through March 31, 2014, the Lansing P&DC APBS mail volume declined
                                                                                  20 percent compared to the same period last year (SPLY). Conversely, the APBS mail volume at the Grand Rapids P&DC
                      the Grand Rapids P&DC needs                                 increased 54 percent compared to the SPLY. In addition, if the APBS is transferred, the Lansing P&DC plans to reassign the 25
Findings




                                                                                  employees working on the APBS to other mail processing operations within its facility.
                          an additional APBS due to
                                 increased volume.                                Machine Use
                                                                                  The Lansing P&DC was not fully utilizing the APBS. The Lansing P&DC ran the APBS an average of 10.1 hours a day, with a
                                                                                  throughput of 2,827 mailpieces per hour from April 1, 2013 through March 31, 2014. In the same period, the Grand Rapids P&DC
                                                                                  ran its APBS an average of 11.1 hours a day with an average throughput of 3,862 mailpieces per hour. The APBS national average
                                                                                  utilization was also higher than the Lansing P&DC’s, with an average run time of 10.7 hours a day and an average throughput of
Recommendations




                                                                                  3,973 mailpieces per hour (see Table 1).

                                                                                  Table 1. Machine Use (April 1, 2013 through March 31, 2014)

                                                                                                                              Daily Machine Run Time                      Mailpieces Per Hour
                                                                                   Grand Rapids APBS                          11.1                                        3,862
                                                                                   Lansing APBS                               10.1                                        2,827
                                                                                   National APBS                              10.7                                        3,973
                                                                                   Source: Web-End of Run (WebEOR).
Appendices




                                                                                  1	 The APBS performs the primary function of receiving small parcels, bundles, and irregular parcels and sorting them based on their postal code into up to 200 separate
                                                                                      output locations. Depending on the type of mail being processed, the APBS can sort it at four different rates into standard trays, sacks, U-carts, hampers, or wire
                                                                                      containers.
                                                                                  2	 Consolidation of all originating and/or destinating distribution operations from one or more Post Office or postal facility into other automated processing facilities to improve
                                                                                      operational efficiency and service.
                                                                                  3 	 Outgoing and local mail that enters the mailstream (the point of origin) for processing and delivery.
                                                                                  4	 Incoming mail arriving for its point of final delivery (destination) through a processing facility.
                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                                                                              Print                                                  5
Highlights                                                                        In addition, in terms of utilization, the Lansing P&DC’s APBS ranked 190th out of 208 APBS machines in use nationwide (or in the
                                                                                  bottom 10 percent). In comparison, the Grand Rapids APBS ranked 92nd, placing it in the upper half in terms of APBS utilization
                                                                                  (see Table 2).

                                                                                  Table 2. National APBS Machine Use Ranking (May 2014)

                                                                                   Site                                         Mailpieces Processed                  National Rank
                                                                                   Grand Rapids P&DC                            1,290,075                             92
Table of Contents




                                                                                   Lansing P&DC                                 672,946                               190
                                                                                   Source: WebEOR.


                                                                                  The Grand Rapids P&DC needs an additional APBS due to increased volume. For the period October 1, 2013, through
                                                                                  March 31, 2014, Lansing P&DC APBS mail volume declined by 1.175 million mailpieces (or 20 percent)5 compared to the
                                                                                  SPLY. Conversely, APBS mail volume at the Grand Rapids P&DC increased by 2.643 million pieces
                                                                                  (or 54 percent)6 compared to the SPLY (see Table 3).

                                                                                  Table 3. Mail Volume (October 1, 2013 to March 31, 2014 vs. SPLY)

                                                                                                                                                                                                              Change in Percentage
                                                                                                                                                          Mailpieces                                          of Mailpieces
                                                                                                                        Mailpieces Processed              Processed SPLY1             Difference              Processed
Findings




                                                                                   Lansing APBS                         4,604,104                         5,779,589                   (1,175,485)             -20%
                                                                                   Grand Rapids APBS                    7,582,193                         4,939,071                   2,643,122               54%
                                                                                   Source: WebEOR.
                                                                                   1	 October 1, 2012 through March 31, 2013.


                                                                                  Our field observations contributed to our conclusions that the Lansing P&DC underutilized the APBS and the Grand Rapids P&DC
                                                                                  could benefit from additional APBS capacity. For example, on June 4, 2014, the Lansing P&DC processed a total of
                                                                                  20,581 mailpieces, with an average throughput of 2,687 mailpieces per hour, while the Grand Rapids P&DC processed
Recommendations




                                                                                  a total of 60,824 mailpieces, with an average throughput of 5,198 mailpieces per hour (see Table 4 and Figure 1).

                                                                                  Table 4. APBS Mail Volume (June 4, 2014)

                                                                                   Site                                         Mailpieces Processed                  Mailpieces per Hour
                                                                                   Lansing P&DC                                 20,581                                2,687
                                                                                   Grand Rapids P&DC                            60,824                                5,198
                                                                                   Source: WebEOR.
Appendices




                                                                                  5	 A part of the volume decline at the Lansing P&DC was the transfer of mail processing volume from ZIP CODE 492 to the Michigan Metroplex P&DC.	
                                                                                  6	 The majority of this parcel volume increase at the Grand Rapids P&DC was the result of mail consolidations as well as overall increase in volumes at the facility. 	
                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                                                                            Print                                           6
Highlights
Table of Contents
Findings                                                                          Figure 1. Lansing P&DC APBS




                                                                                  Observations at the Lansing P&DC on June 4, 2014, at 8:47 p.m. found the APBS idle due to lack of mail.

                                                                                  Total parcel volume and manually processed parcel volume both indicate that the Grand Rapids P&DC would more fully utilize
                                                                                  an APBS than the Lansing P&DC. From October 2013 to March 2014, the Grand Rapids P&DC processed about six times the
                                                                                  Lansing P&DC’s volume. The Grand Rapids P&DC processed 35 million parcels compared with the Lansing P&DC’s 5.7 million
                                                                                  parcels. Moreover, the Grand Rapids P&DC’s manual processing volume was more than eight times that of the Lansing P&DC
Recommendations




                                                                                  from October 2013 to March 2014. The Grand Rapids P&DC manually processed about 12.6 million parcels during that time,
                                                                                  while the Lansing P&DC processed about 1.5 million parcels.

                                                                                  Employee Impact
                                                                                  Transferring the APBS from the Lansing P&DC to the Grand Rapids P&DC will not result in any full-time job losses. The
                                                                                  Lansing P&DC plans to reassign the 25 employees working on the APBS to other mail processing operations within the
                                                                                  same facility.
Appendices




                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                                                            Print              7
Highlights                                                                        Cost Savings
                                                                                  The U.S. Postal Office of Inspector General (OIG) estimates cost savings from transfer of the APBS at $1,814,853 in the first
                                                                                  year and $1,892,353 annually in subsequent years. This savings takes into account the additional cost of $2,382,108 the
                                                                                  Lansing P&DC will incur by manually processing mail that is processed on the APBS (see Table 5).

                                                                                  Table 5. Overall Savings

                                                                                  Category                                                                       Savings/(Costs)
Table of Contents




                                                                                  Grand Rapids P&DC’s Savings:
                                                                                  Manual Processing Savings1                                                            $6,138,511
                                                                                  APBS Mail Processing Cost2                                                           ($1,864,050)
                                                                                  Net Savings at Grand Rapids P&DC                                                      $4,274,461
                                                                                  Lansing P&DC’s Additional Cost:
                                                                                  Cost of Manual Processing3                                                            $3,420,922
                                                                                  Cost of Processing Mail on APBS4                                                      $1,038,814
                                                                                  Lansing P&DC’s Net Cost                                                              ($2,382,108)
                                                                                  Net Savings From Moving APBS to Grand Rapids                                          $1,892,353
                                                                                  One-Time Cost5 to Move APBS                                                             ($77,500)
                                                                                  Total First Year Savings                                                              $1,814,853
Findings




                                                                                  Annual Savings After First Year                                                       $1,892,353
                                                                                  Source: OIG calculation.
                                                                                  1	 We calculated this number by dividing the Grand Rapids P&DC excess machine capacity the
                                                                                     Lansing P&DC’s APBS will bring to the Grand Rapids P&DC by the Postal Service’s manual
                                                                                     Breakthrough Productivity Initiative (BPI) and multiplying the product by Grand Rapids’ P&DC Labor
                                                                                     Distribution Code (LDC) 14 labor cost rate ((15,108,577 mailpieces/116 BPI)*47.13).
                                                                                  2	 We calculated this number by dividing the Grand Rapids P&DC excess machine capacity the
                                                                                     Lansing P&DC APBS will bring to the Grand Rapids P&DC by the Postal Service’s APBS BPI
                                                                                     and multiplying the product by the Grand Rapids P&DC’s LDC 14 labor cost rate ((15,108,577
                                                                                     mailpieces/382 BPI)*47.13).
Recommendations




                                                                                  3	 We calculated this number by dividing the number of mailpieces that will have to be processed manually
                                                                                     at the Lansing P&DC because of the APBS move by the Postal Service’s manual BPI and multiplying
                                                                                     the product by Lansing P&DC’s LDC 14 labor cost rate ((8,845,896 mailpieces/116 BPI)*44.86).
                                                                                   4	 We calculated this number by dividing the number of mailpieces that will have to be processed manually
                                                                                      at the Lansing P&DC because of the APBS move by the Postal Service’s APBS BPI, and multiplying the
                                                                                      product by Lansing P&DC’s LDC 14 labor cost rate ((8,845,896 mailpieces/382 BPI)*44.86).
                                                                                  5	 We determined there will be a one-time cost due to relocating the APBS.	
Appendices




                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                                                               Print              8
Highlights
                    Recommendations                                               We recommend the vice president, Network Operations:

                                                                                  1.	 Transfer the Lansing, MI, Processing and Distribution Center’s Automated Parcel and Bundle Sorter to the Grand Rapids, MI,
                                                                                      Processing and Distribution Center.

                                                                                  Management’s Comments
                                                                                  Management agreed with our findings and recommendation. Management agreed to transfer the Lansing, MI, P&DC’s APBS to
                       Management agreed with our                                 the Grand Rapids, MI, P&DC by September 30, 2014.
Table of Contents




                     recommendation to transfer the                               See Appendix B for management’s comments, in their entirety.
                     Lansing, MI, P&DC’s Automated
                                                                                  Evaluation of Management’s Comments
                     Parcel and Bundle Sorter to the                              The OIG considers management’s comments responsive to the recommendation in the report.
                           Grand Rapids, MI, P&DC.
Findings
Recommendations
Appendices




                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                                          Print                                    9
Highlights
                    Appendices
                                                                                  Appendix A: Additional Information........................................................... 11
                                                                                   Background ........................................................................................... 11
                                                                                   Objective, Scope, and Methodology.......................................................13
                          Click on the appendix title                              Prior Audit Coverage..............................................................................13
                                                                                  Appendix B: Management’s Comments....................................................14
Table of Contents




                           to the right to navigate to
                                the section content.
Findings
Recommendations
Appendices




                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                                     Print                     10
Highlights          Appendix A:                                                   Background
                    Additional Information                                        The Postal Service ended FY 2013 with a net loss of $5 billion, marking the 7th consecutive year in which the Postal Service
                                                                                  incurred a net loss. The requirement to prefund its retiree health benefit obligations and the continuous drop in First-Class Mail®
                                                                                  volume have been major factors contributing to the Postal Service’s losses.

                                                                                  In April 2013, the Postal Service released its updated comprehensive Business Plan, which included detailed plans to eliminate
                                                                                  nearly $20 billion in annual costs by 2017. The Postal Service stated that it will continue to aggressively pursue the strategies
                                                                                  within its control to increase operational efficiency and improve its liquidity position. As part of the Business Plan, the
Table of Contents




                                                                                  Postal Service expects to save nearly $6 billion annually by consolidating the mail processing, retail, and delivery networks. The
                                                                                  Postal Service stated that network consolidations are necessary to better align its networks with mail volume and workhours.

                                                                                  The Postal Service uses guidelines7 to consolidate mail processing functions, eliminate excess capacity, increase efficiency, and
                                                                                  better use resources. Consolidations provide opportunities for the Postal Service to reduce costs, improve service, and operate as
                                                                                  a leaner, more efficient organization.

                                                                                  Title 39 U.S.C. Part 1, Chapter 1, §101, states that the Postal Service:

                                                                                         “. . . shall provide prompt, reliable, and efficient services to patrons in all areas . . . .”

                                                                                  Further, the September 2005 Postal Service Strategic Transformation Plan states:
Findings




                                                                                         “The Postal Service will continue to provide timely, reliable delivery to every address at reasonable rates.”

                                                                                  The Postal and Accountability Enhancement Act of 2006, highlights:

                                                                                         “. . . the need for the Postal Service to increase its efficiency and reduce its costs, including infrastructure costs, to help
                                                                                         maintain high quality, affordable postal services . . . .”
Recommendations




                                                                                  This audit responds to a request from U.S. Senator Carl Levin of Michigan to review the Postal Service’s proposed move of the
                                                                                  APBS from the Lansing P&DC to the Grand Rapids P&DC.
Appendices




                                                                                  7	 Handbook PO-408, Area Mail Processing Guidelines, March 2008. 	
                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                                                          Print                            11
Highlights                                                                        The Lansing and Grand Rapids P&DCs are about 72 miles apart and are located in the Greater Michigan District in the
                                                                                  Great Lakes Area (see Figure 2).

                                                                                  Figure 2: Location of the Grand Rapids P&DCs

                                                                                  Figure 2: Location of the Lansing and Grand Rapids P&DCs
Table of Contents
Findings
Recommendations




                                                                                  Movement of the APBS was included in the AMP study completed by the Greater Michigan District to consolidate mail operations
                                                                                  from the Lansing P&DC to the Grand Rapids P&DC. Postal Service Headquarters approved the move in March 2014.
Appendices




                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                                         Print                               12
Highlights                                                                        Objective, Scope, and Methodology
                                                                                  Our objective was to determine whether a business case exists for moving the APBS from the Lansing P&DC to the Grand Rapids
                                                                                  P&DC. We reviewed data from October 2012 through March 2014 to analyze machine use and capacity at the Lansing and
                                                                                  Grand Rapids P&DCs and conducted observations and interviewed management.

                                                                                  We used computer-processed data from the Enterprise Data Warehouse and the WebEOR database. We assessed the reliability
                                                                                  of the data by interviewing agency officials knowledgeable about them. We determined that the data were sufficiently reliable for
                                                                                  the purposes of this report.
Table of Contents




                                                                                  We conducted this performance audit from May through September 2014, in accordance with generally accepted government
                                                                                  auditing standards and included such tests of internal controls as we considered necessary under the circumstances. Those
                                                                                  standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
                                                                                  our findings and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable basis for
                                                                                  our findings and conclusions based on our audit objective. We discussed our observations and conclusions with management on
                                                                                  August 11, 2014, and included their comments where appropriate.

                                                                                  Prior Audit Coverage
                                                                                  We have not previously performed an audit on equipment moves.
Findings
Recommendations
Appendices




                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                                            Print                                 13
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                  Print   14
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                  Print   15
Highlights
Table of Contents
Findings




                                                                                     Contact us via our Hotline and FOIA forms, follow us on social
                                                                                  networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                                         or abuse. Stay informed.
Recommendations




                                                                                                        1735 North Lynn Street
                                                                                                       Arlington, VA 22209-2020
                                                                                                             (703) 248-2100
Appendices




                    Equipment Transfer From the Lansing, MI, Processing Center
                    to the Grand Rapids, MI, Processing and Distribution Center
                    Report Number NO-AR-14-010
                                                                                                                                                           Print   16
